APPENDIX

1a
APPENDIX A

IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
CONSUMER FINANCIAL
PROTECTION BUREAU,

No. 18-90015

Plaintiff Respondent
v.
ALL AMERICAN CHECK CASHING,
INCORPORATED; MID-STATE
FINANCE, INCORPORATED;
MICHAEL E GRAY, Individually,
Defendants Petitioners
________________________
Motion for Leave to Appeal
from an Interlocutory Order
________________________
Before DENNIS, SOUTHWICK, and HIGGINSON,
Circuit Judges.
PER CURIAM:
The motion for leave to appeal from the interlocutory order of the United States District Court of the

2a
Southern District of Mississippi, entered on March 21,
2018, is GRANTED.

3a
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

CIVIL ACTION
NO. 3:16-cv-356WHB-JCG

Plaintiff
vs.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
Individually
Defendants
ORDER
In accordance with the stay issued in this case, all
motions pending herein [Docket Nos. 197 and 201]
will be held in abeyance, and the rulings thereon deferred, until the interlocutory appeal has been decided
by the United States Court of Appeals for the Fifth
Circuit.
SO ORDERED this the 29th day March, 2018.
s/ William H. Barbour, Jr.
UNITED STATES DISTRICT JUDGE

4a
APPENDIX C

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

CIVIL ACTION
NO. 3:16-cv-356WHB-JCG

Plaintiff
vs.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
Individually
Defendants
ORDER
On March 21, 2018, the Court entered an Opinion
and Order by which the Motion of Defendants for
Judgment on the Pleadings was denied. Defendants
have now moved for an Order certifying the following
two questions for interlocutory appeal.
(1) Does the structure of the Consumer Financial Protection Bureau (“CFPB”) violate Article II of the Constitution and the Constitution’s separation of powers?
(2) Do principles of fair notice and due process
prevent the CFPB from enforcing the Consumer Financial Protection Act’s prohibition

5a
against “unfair,” “deceptive,” and “abusive”
acts, 12 U.S.C. § 5536(a)(1)(B), without defining those terms?
Interlocutory appeals are governed by 28 U.S.C.
§ 1292(b), which provides:
When a district judge, in making in a civil action an order not otherwise appealable under
this section, shall be of the opinion that such
order involves a controlling question of law as
to which there is substantial ground for difference of opinion and that an immediate appeal
from the order may materially advance the ultimate termination of the litigation, he shall
so state in writing in such order. The Court of
Appeals which would have jurisdiction of an
appeal of such action may thereupon, in its
discretion, permit an appeal to be taken from
such order, if application is made to it within
ten days after the entry of the order: Provided,
however, That application for an appeal hereunder shall not stay proceedings in the district court unless the district judge or the
Court of Appeals or a judge thereof shall so order.
As regards the question of whether the structure
of the Consumer Financial Protection Bureau violates
Article II of the Constitution and the separation of
powers set forth therein, the Court finds the grounds
for granting an interlocutory appeal are satisfied.
First, whether the structure of the CFPB is unconstitutional based on its single-director status presents a
controlling question of law that has not yet been decided by the United States Court of Appeals for the
Fifth Circuit. Second, there is substantial ground for
difference of opinion as to this issue as exhibited by

6a
the differences of opinion amongst the jurists in the
United States Court of Appeals for the District of Columbia who have considered the issue. See PHH
Corp. v. CFPB, 839 F.3d 1 (D.C. Cir. 2017) (holding
the CFPB was unconstitutionally structured) (opinion
by J. Kavanagh, with separate concurring opinion by
J. Randolph, and separate concurring in part, and dissenting in part opinion by J. Henderson); rev’d en
banc, 881 F.3d 75 (D.C. Cir. 2018) (holding that the
statutory provision by which the Director of the CFPB
could be removed by the President only for cause was
constitutional) (opinion and occurring [sic] opinions by
Judges Pillard, Tatel, Millett, Wilkins, and Rogers;
opinion concurring with judgment by J. Griffith; dissenting opinions by Judges Henderson, Kavanaugh,
and Randolph). Third, the immediate appeal of this
question will materially advance the ultimate termination of the litigation because the case would not be
able to proceed in the event the CFPB is not a constitutionally authorized entity. A decision that the case
cannot proceed at this time would avoid the anticipated two week jury trial, which, in turn, would prevent the parties’ incurring addition litigation expenses and would prevent the expenditure of judicial
resources.
As regards the question of whether the principles
of fair notice and due process prevent the CFPB from
enforcing the Consumer Financial Protection Act’s
prohibition against “unfair,” “deceptive,” and “abusive” acts without defining those terms, the Court
finds the grounds for granting an interlocutory appeal
have not been satisfied because there is no substantial
ground for difference of opinion as to whether the
terms “unfair,” “deceptive,” and/or “abusive” have
been adequately defined by other federal statutes

7a
from which Congress borrowed when enacting the
Consumer Financial Protection Act.
For these reasons:
IT IS THEREFORE ORDERED that the Motion
of Defendants for Certification of Questions for Interlocutory Appeal [Docket No. 238] is hereby granted
only as to the following question:
(1) Does the structure of the Consumer Financial Protection Bureau (“CFPB”) violate Article II of the Constitution and the Constitution’s separation of powers?
IT IS FURTHER ORDERED that the Clerk of
Court is directed to stay all proceedings in this case
pending decision by the United States Court of Appeals for the Fifth Circuit as to whether it will consider the question herein certified, or until the interlocutory appeal is concluded, whichever is later.
SO ORDERED this the 27th day of March, 2018.
s/ William H. Barbour
UNITED STATES DISTRICT JUDGE

8a
APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

CIVIL ACTION
NO. 3:16-cv-356WHB-JCG

Plaintiff
vs.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
Individually
Defendants
OPINION AND ORDER
This cause is before the Court on the Motion of Defendants for Judgement on the Pleadings. Having
considered the pleadings, as well as supporting and
opposing authorities, the Court finds the Motion is not
well taken and should be denied.
I.

Factual Background and Procedural History

The Consumer Financial Protection Bureau (“Bureau”) filed a lawsuit against All American Check
Cashing, Inc. (“All American”); Mid-State Finance,

9a
Inc.; and Michael E. Gray,1 alleging that they violated
Sections 1031(a), 1036(a), and 1054(a) of the Consumer Finance Protection Act of 2010 (“CFPA”), codified at 12 U.S.C. §§ 5531(a), 5536(a), and 5564(a), respectively.2 The alleged violations are connected with
check cashing services and payday loans that had
been offered by Defendants.
In its Complaint, the Bureau alleges that Defendants violated the CFPA by engaging in “abusive acts
and practices” and/or “deceptive acts or practices”
with respect to the check cashing services they provided. The alleged abusive and/or deceptive acts and
practices included, but were not limited to, that Defendants: (1) failed to inform customers of the fees
they would be charged for check cashing services; (2)
intentionally blocked or otherwise interfered with a
customer’s ability to see the fee they were being
charged on the receipt they were required to sign to
have their check cashed; (3) provided false and/or misleading information to customers regarding the fees
they would be charged and their ability to cancel
check-cashing transactions; and (4) pressured or coerced customers into cashing their checks by, inter
alia, processing checks without the customer’s consent or prematurely endorsing the check thereby impeding the ability of the customer to have the check
cashed elsewhere.

1
All American Check Cashing, Inc.; Mid-State Finance, Inc.;
and Michael E. Gray will be collectively referred to as “Defendants”.
2
As the Complaint alleges claims arising under federal law,
and is brought by an agency of the United States Government,
the Court may exercise federal subject matter jurisdiction in this
case under 28 U.S.C. §§ 1331 and 1345.

10a
The Bureau also alleges that Defendants violated
the CFPA by engaging in “deceptive acts or practices”
with respect to the payday loans they offered. Specifically, the Bureau alleges that Defendants misrepresented to customers that the two-week payday loans
they offered provided greater financial benefit than
the thirty-day payday loans offered by their competitors when in reality the customer was charged higher
fees for the two-week payday loans. Finally, the Bureau alleges that Defendants violated the CFPA by
failing to notify customers when they had overpaid
their loan amounts and/or by failing to refund the
overpayments.
Defendants have now moved for judgment on the
pleadings arguing that this action in void ab initio because, inter alia, the CFPA is unconstitutional.
II. Discussion
Defendants have moved for judgment on the
pleadings pursuant to Rule 12(c) of the Federal Rules
of Civil Procedure. This rule provides, in relevant
part: “[a]fter the pleadings are closed ... a party may
move for judgment on the pleadings.” According to the
United States Court of Appeals for the Fifth Circuit,
“‘[a] motion brought pursuant to [Rule] 12(c) is designed to dispose of cases where the material facts are
not in dispute and a judgment on the merits can be
rendered by looking to the substance of the pleadings
and any judicially noticed facts.’” Machete Prods.,
L.L.C. v. Page, 809 F.3d 281, 287 (5th Cir. 2015) (quoting Great Plains Tr. Co. v. Morgan Stanley Dean Witter & Co., 313 F.3d 305, 312 (5th Cir. 2002)). When
considering a Rule 12(c) motion, the Court applies the
same standard as is used when considering a motion

11a
for failure to state a claim under Rule 12(b)(6) of the
Federal Rules of Civil Procedure. Great Plains, 313
F.3d at 313. As with Rule 12(b)(6), the “central issue”
when deciding a Rule 12(c) motion “is whether, in the
light most favorable to the plaintiff, the complaint
states a valid claim for relief.” Hughes v. Tobacco
Inst., Inc., 278 F.3d 417, 420 (5th Cir. 2001) (alteration in original) (internal quotations omitted).
In their Motion for Judgment on the Pleadings,
Defendants first argue that the structure of the Bureau is unconstitutional and, therefore, the agency
lacks authority to bring this action. The claim underlying this argument is that the structure of the Bureau is “antithetical to the separation of powers” doctrine in so far [sic] as the Bureau is headed by a single
director who allegedly “wields unchecked legislative,
executive, and judicial powers”, and who is not accountable to either Congress or the President. See
Mem. in Supp. of Mot. [Docket No. 145], 5-15. The
argument that the Bureau is unconstitutional based
on its single-director status, however, was recently rejected by the United States Court of Appeals for the
District of Columbia. See PHH Corp. v. CFPB, 881
F.3d 75 (D.C. Cir. 2018). As summarized by that
Court:
The Supreme Court’s removal-power decisions have, for more than eighty years, upheld
ordinary for-cause protections of the heads of
independent agencies, including financial regulators. That precedent leaves to the legislative process, not the courts, the choice
whether to subject the Bureaus’s leadership to
at-will presidential removal. Congress’s decision to provide the CFPB Director a degree of
insulation reflects its permissible judgment

12a
that civil regulation of consumer financial protection should be kept one step removed from
political winds and presidential will. We have
no warrant here to invalidate such a timetested course. No relevant consideration gives
us reason to doubt the constitutionality of the
independent CFPB’s single-member structure. Congress made constitutionally permissible institutional design choices for the CFPB
with which courts should hesitate to interfere.
“While the Constitution diffuses power the
better to secure liberty, it also contemplates
that practice will integrate the dispersed powers into a workable government.” Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 635
(1952).
Id. at 110. For the same reasons stated in PHH Corp.,
this Court rejects the arguments raised by Defendants, and likewise finds that the Bureau is not unconstitutional based on its single-director structure.
Next, Defendants argue that the claims alleged
under the CFPA violate due process because the Act
fails to give fair notice of the conduct proscribed by
that statute. The issue of due process/fair notice was
considered by the United States District Court for the
Southern District of Indiana in the case of CFPB v.
ITT Educational Services, Inc., 219 F. Supp. 3d 878
(S.D. Ind. 2015). In ITT, the defendant argued that
the CFPA claims alleged against it were subject to dismissal because the Act did not provide fair notice as
to what constituted “unfair” and “abusive” conduct
thereunder. The defendant further argued that because the terms “unfair” and “abusive” were vague,
any attempt to enforce the CFPA against it would violate the Due Process clause of the Fifth Amendment.

13a
In considering the vagueness/due process challenge, the court in ITT began with this summary of
applicable case law on the issue.
“A fundamental principle in our legal system
is that laws which regulate persons or entities
must give fair notice of conduct that is forbidden or required.” F.C.C. v. Fox Television Stations, Inc., 567 U.S. 239, 253 (2012); Papachristou v. City of Jacksonville, 405 U.S. 156,
162 (1972) (“Living under a rule of law entails
various suppositions, one of which is that all
persons are entitled to be informed as to what
the State commands or forbids.”) (citations
omitted). A statute is void for vagueness if it
“fails to provide a person of ordinary intelligence fair notice of what is prohibited, or is so
standardless that it authorizes or encourages
seriously
discriminatory
enforcement.”
United States v. Williams, 553 U.S. 285, 304
(2008); Hill v. Colorado, 530 U.S. 703, 732
(2000). This doctrine is not implicated merely
because “it may at times be difficult to prove
an incriminating fact but rather because it is
unclear as to what fact must be proved.” Fox
Television, 567 U.S. at 253. Nor can a court
declare a law unconstitutionally vague based
on “the mere fact that close cases can be envisioned” under its provisions. Williams, 553
U.S. at 305–306. Rather, we refuse to apply a
statutory standard only where it is so amorphous that reasonable observers have no
choice but to “guess at its meaning[,] and differ as to its application.” Connally v. General
Constr. Co., 269 U.S. 385, 391 (1926) (explaining that “[a] statute which either forbids or requires the doing of an act in terms so vague

14a
that men of common intelligence must necessarily guess at its meaning and differ as to its
application, violates the first essential of due
process of law”.).
ITT, 219 F.Supp.3d at 899 (alterations in original).
The ITT court then considered the challenged provision of the CFPA, which provides, in relevant part: “It
shall be unlawful for ... any covered person or service
provider ... to engage in any unfair, deceptive, or abusive act or practice.” 12 U.S.C. § 5536(a)(1)(B). On review the court in ITT rejected the defendant’s argument that the terms “unfair” and “deceptive” were impermissibly vague on the grounds that these same
terms are contained in the Fair Trade Commission
Act, codified at 15 U.S.C. § 45(a)(1), and Congress was
well aware of the meaning given to those terms when
it enacted the CFPA. As further explained:
The CFPA, like the FTCA before it, has empowered the agency itself to fill in the broad
outlines of its authority with specific regulations and interpretations. The agency and the
courts have done so in fleshing out the term
“unfair ... act or practice,” and Congress has
tapped into that existing body of law in framing the CFPA with identical terminology. We
thus have no difficulty in rejecting [defendant’s] suggestion that a reasonable business
entity would be forced to guess at the term’s
meaning, or would be subject to agency’s
standardless discretion in its enforcement.
ITT, 219 F.Supp.3d at 904.
The court in ITT likewise rejected the argument
that the phrase “abusive act or practice” was unconstitutionally vague, first, on the grounds that the

15a
CFPA expressly describes the type of conduct/practice
that can be declared “abusive”. See 12 U.S.C.
§ 5531(d).3 Second, the court in ITT found that the
term “abusive” was not novel in that the same term
was used by Congress when enacting the Fair Debt
Collection Practices Act (“FDCPA”), see 15 U.S.C.
§ 1692(e) (explaining that one of the purposes of the
FDCPA is to “eliminate abusive debt collection practices by debt collectors”), and that that Act expressly
describes conduct and/or practices considered abusive.
See 15 U.S.C. § 1692d. As summarized by the court
in ITT:
Because the CFPA itself elaborates the conditions under which a business’s conduct may be
found abusive — and because agencies and
courts have successfully applied the term as
used in closely related consumer protection
statutes and regulations — we conclude that
the language in question provides at least the
minimal level of clarity that the due process
3

The relevant subsection of the CFPA provides:
(d) The Bureau shall have no authority under this section to declare an act or practice abusive in connection with the provision
of a consumer financial product or service, unless the act or practice –
(1) materially interferes with the ability of a consumer to understand a term or condition of a consumer financial product or service; or
(2) takes unreasonable advantage of –
(A) a lack of understanding on the part of the consumer of the
material risks, costs, or conditions of the product or service;
(B) the inability of the consumer to protect the interests of the
consumer in selecting or using a consumer financial product or
service; or
(C) the reasonable reliance by the consumer on a covered person
to act in the interests of the consumer.

16a
clause demands of non-criminal economic regulation.
ITT, 219 F.Supp.3d at 906. For the same reasons
stated by the court in ITT, this Court rejects the fair
notice/due process challenge made by Defendants,
which is premised on arguments that the terms “unfair”, “deceptive” and “abusive acts and practices” in
the CFPA are unconstitutionally vague.
Third, Defendants argue that the CFPA violates
the non-delegation doctrine because Congress did not
clearly delineate the general policy for, or the boundaries of delegated authority to, the Bureau. Contrary
to this argument, the CFPA does provide general policy/boundaries of authority for the Bureau. See 12
U.S.C. § 5511 (providing that the purposes of the Bureau include implementing and enforcing federal consumer financial law; investigating consumer complaints; identifying risks to consumers in the marketplace; taking appropriate enforcement action against
violators of federal consumer financial law; and issuing rules, orders, and guidance for implementing federal consumer financial law). The CFPA likewise provides limits on the types of conduct that can be declared “unfair” or “abusive” under the Act. See 12
U.S.C. § 5532(c) and (d). Because Congress, when enacting the CFPA, delineated a general policy for the
Bureau to follow, and provided limits on its authority,
the Court finds Defendants have failed to show that
the CFPA violates the non-delegation doctrine. See
e.g. [sic] United States v. Whaley, 577 F.3d 254, 26364 (5th Cir. 2009) (explaining that the “modern test”
for assessing alleged violations of the non-delegation
doctrine is “whether Congress has provided an ‘intelligible principle’ to guide the agency’s regulations”,
and that delegation is “‘constitutionally sufficient if

17a
Congress clearly delineates the general policy, the
public agency which is to apply it, and the boundaries
of this delegated authority’”) (quoting Mistretta v.
United States, 488 U.S. 361, 372 (1989) and American
Power & Light Co. v. SEC, 329 U.S. 90, 105 (1946),
respectively).
Finally, Defendants argue that they are entitled
to a judgment on the pleadings because the CFPA violates the principles of federalism. The federalism
challenge stems from the fact that the Bureau allegedly bases several of its FCPA claims on allegations
including that All American violated state law. According to Defendants, if their conduct violated state
law, then the state, as opposed to the federal government, should be responsible for bringing an enforcement action. See Mem. in Supp. of Mot. [Docket No.
145], 21 (arguing that the Bureau, by basing its claims
on alleged violations of state law, has intruded on the
rights of the states “to determine how far their laws
should reach and how they should be enforced.”). A
review of the Complaint makes clear, however, that
while there are allegations that state law was violated, the Bureau also alleges conduct on the part of
All American that has not been shown subsumed by
state law. For example, the Complaint alleges that
Mississippi and Louisiana law require the display of
fees for check cashing services. See Compl. ¶ 21. According to the Complaint, All American did display
the required fee information, but it was displayed in
such a manner as to make it unlikely that customers
would actually see it. Id. (alleging that the fee sign
was placed “under the counter” in All American offices). The Complaint further alleges that All American employees were specifically instructed to take action so as to either minimize or negate the likelihood
that the fee display would be seen by customers. Id.

18a
(alleging that All American employees were told to
limit the time customers were at the counter, and
have them wait in the lobby while their checks were
processed so as to minimize the likelihood that they
would see the posted fee signs); Id., ¶ 22 (alleging that
All American employees were trained to use distraction techniques including providing consumers with
non-relevant information and small gifts to keep them
from having an opportunity to ask about fees). Because there has been no showing that all of the conduct on which the Bureau bases this enforcement action would be solely in the providence of state law, the
Court finds Defendants have failed to show that they
are entitled to judgment on the pleadings based on
federalism concerns.
III. Conclusion
For the foregoing reasons:
IT IS THEREFORE ORDERED that the Motion
of Defendants for Judgment on the Pleadings [Docket
No. 144] is hereby denied.
IT IS FURTHER ORDERED that the Motion of
Defendants for Hearing on their Motion for Judgment
on the Pleadings [Docket No. 235] is hereby denied as
unnecessary.
SO ORDERED this the 21st day of March, 2018.
s/ William H. Barbour, Jr.
UNITED STATES DISTRICT JUDGE

19a
APPENDIX E

IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI NORTHERN
DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

CIVIL ACTION
NO. 3:16-cv00356-WHB-JCG

Plaintiff
vs.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
individually
Defendants
NOTICE
The Consumer Financial Protection Bureau
hereby notifies the Court and defendants of recent
events relevant to defendants’ claim that this case
must be dismissed because the Consumer Financial
Protection Act unconstitutionally permits the President to remove the Bureau Director only for cause.
See 12 U.S.C. § 5491(c)(3). Recent events have rendered that argument moot.
On November 24, 2017, the Bureau’s former Director, Richard Cordray, resigned, and President Trump
designated Office of Management and Budget Director

20a
Mick Mulvaney to serve as the Bureau’s Acting Director pursuant to the Federal Vacancies Reform Act, 5
U.S.C. §§ 3345-3349d. See The White House, Office of
the Press Secretary, Statement on President Donald J.
Trump’s Designation of OMB Director Mick Mulvaney
as Acting Director of the Consumer Financial Protection
Bureau
(Nov.
24,
2017),
https://www.whitehouse.gov/the-press-office/2017/11/24/statement-president-donald-j-trumpsdesignation-omb-director-mick. Acting Director Mulvaney has carefully considered the Bureau’s decision to
bring this lawsuit and has ratified that decision. See
Ex. 1, Declaration of Mick Mulvaney, the Acting Director of Plaintiff Consumer Financial Protection Bureau,
Regarding Ratification.
In light of these events, defendants’ constitutional challenge no longer applies. In his capacity as
Acting Director, Mr. Mulvaney is removable by the
President at will. The CFPA’s removal provision by
its terms applies only to “the Director,” not to an Acting Director. 12 U.S.C. § 5491(c)(3). And the Vacancies Reform Act does not limit the President’s ability
to designate a different person as Acting Director,
and thereby remove Mr. Mulvaney from that role. As
the Department of Justice’s Office of Legal Counsel
explained, “Congress does not, by purporting to give
tenure protection to a Senate-confirmed officer, afford
similar protection to an individual who temporarily
performs the functions and duties of that office when
it is vacant.” Designating an Acting Director of the Bureau of Consumer Financial Protection, 41 Op. O.L.C.
___, 2017 WL 6419154, Slip Op. at 10 (Nov. 25, 2017)
(citing Swan v. Clinton, 100 F.3d 973 (D.C. Cir. 1996),
which holds that an officer who may be removed only
for cause is removable at will if that officer holds over
beyond the officer’s designated term).

21a
Because Acting Director Mulvaney is removable
at will and has ratified the decision to bring this case,
Defendants cannot obtain dismissal on the ground
that this case was initially filed by an agency led by a
Director removable only for cause. Acting Director
Mulvaney’s ratification cured any constitutional problem with this case’s initiation. Courts have consistently held that a properly constituted government
agency may cure a constitutional problem with previous agency actions by ratifying prior actions that the
agency took when its structure or composition was
constitutionally flawed. See Wilkes-Barre Hosp. Co,
LLC v. NLRB, 857 F.3d 364, 371 (D.C. Cir. 2017)
(“Ratification can remedy defects arising from the decisions of improperly appointed officials.”); Advanced
Disposal Servs. East, Inc. v. NLRB, 820 F.3d 592, 602
(3d Cir. 2016) (concluding that ratifications by
properly appointed officials were “sufficient to cure”
problem with board appointments that previously left
agency without authority to act); CFPB v. Gordon, 819
F.3d 1179, 1192 (9th Cir. 2016) (holding that Bureau
Director’s “ratification, done after he was properly appointed as Director, resolves any Appointments
Clause deficiencies” present at the time enforcement
action was filed); FEC v. Legi-Tech, Inc., 75 F.3d 704
(D.C. Cir. 1996) (holding that “FEC’s post-reconstitution ratification of its prior decisions” was “an adequate remedy for” an earlier constitutional defect in
the agency’s structure at time enforcement action was
initiated). Acting Director Mulvaney has done just
that. Because Acting Director Mulvaney’s ratification
of the decision to bring this enforcement action remedied any constitutional problem with the initiation of
this case, defendants’ motion for judgment on the
pleadings on that basis must be denied.

22a
Should the Court request it, the Bureau stands
ready to provide supplemental briefing on this additional ground for denying defendants’ motion for judgment on the pleadings.

23a
Dated: February 5, 2018 Respectfully submitted,
CONSUMER FINANCIAL
PROTECTION BUREAU
KRISTEN DONOGHUE
Enforcement Director
CARA PETERSEN
Deputy Enforcement Director for Litigation
R. GABRIEL D. O’MALLEY
Assistant Litigation Deputy
s/Emily Mintz
EMILY MINTZ (VA Bar
No. 82437)
Phone: (202) 435-9424
Email:
emily.mintz@cfpb.gov
MICHAEL FAVRETTO
(NY Bar No. 4508727)
Phone: (202) 435-7785
Email: michael.favretto@cfpb.gov
STEPHANIE BRENOWITZ (NY Bar No.
4317418)
Phone: (202) 435-9005
Email: stephanie.brenowitz@cfpb.gov
Enforcement Attorneys
Consumer Financial Protection Bureau
1700 G Street NW

24a
Washington, DC 20552
Facsimile: (202) 435-7722

25a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI NORTHERN
DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

CIVIL ACTION
NO. 3:16-cv00356-WHB-JCG

Plaintiff
vs.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
individually
Defendants
DECLARATION OF MICK MULVANEY, THE
ACTING DIRECTOR OF PLAINTIFF
CONSUMER FINANCIAL PROTECTION
BUREAU, REGARDING RATIFICATION
I, Mick Mulvaney, declare as follows, pursuant to
28 U.S.C. § 1746:
1) On November 24, 2017, upon the resignation of
the Consumer Financial Protection Bureau’s (Bureau)
former Director, Richard Cordray, President Trump,
acting pursuant to the Federal Vacancies Reform Act, 5
U.S.C. §§ 3345—3349d, designated me the Bureau’s Acting Director.
2) In my capacity as the Bureau’s Acting Director, I have reviewed the Bureau’s decision to file a lawsuit against All American Check Cashing, Inc., Mid-

26a
State Finance, Inc., and Michael E. Gray. The Bureau’s decision to initiate this case was originally authorized by former Director Cordray on November 3,
2015.
3) After having been briefed by the Bureau’s Office of Enforcement regarding this case, I ratified the
Bureau’s decision to file a lawsuit against All American Check Cashing, Inc., Mid-State Finance, Inc., and
Michael E. Gray.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on February___, 2018.
_______________________
MICK MULVANEY
Acting Director
Consumer Financial Protection Bureau

27a
APPENDIX F

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
CONSUMER FINANCIAL
PROTECTION BUREAU

Case No. 3:16-cv356-WHB-JCG

Plaintiff
v.
ALL AMERICAN CHECK CASHING,
INC.; MID-STATE FINANCE, INC.;
and MICHAEL E. GRAY,
individually
Defendants
DECLARATION OF ROBIN H. RASMUSSEN
PURSUANT TO 28 U.S.C. § 1746
I, Robin H. Rasmussen, declare and state as follows:
1. I am an attorney at law duly licensed to practice in the State of Mississippi and I am counsel for
All American Check Cashing, Inc., Mid-State Finance,
Inc. and Michael E. Gray (collectively, “All American”)
in litigation with the Mississippi Department of Banking and Consumer Finance in Mississippi state court.
See All American Check Cashing, Inc. v. Corley, Cause
No. 25CH1:17-cv-000699, Chancery Court of the First
Judicial District of Hinds County, Mississippi.

28a
2. On June 8, 2017, All American and the Mississippi Department of Banking and Consumer Finance entered into a settlement agreement resolving
the state court litigation referenced in paragraph 1.
3. Attached as Exhibit A is a true and correct
copy of the settlement agreement.

29a
I declare under penalty of perjury that the foregoing is true and correct and that this declaration was
executed on this 14th day of June, 2017 in Memphis,
Tennessee.
_________________________
Robin H. Rasmussen

30a

EXHIBIT A

31a

IN THE CHANCERY COURT OF THE FIRST
JUDICIAL DISTRICT OF HINDS
COUNTY, MISSISSIPPI
ALL AMERICAN CHECK
CASHING, INC., a Mississippi
Corporation, and MID-STATE
FINANCE, INC., a Mississippi
Corporation, and Michael E.
Gray, Individually

CASE NO G2017-699 S/2

Plaintiff
v.
CHARLOTTE CORLEY, in her
capacity as Commissioner of
the Mississippi Department of
Banking and Consumer
Finance, and THE MISSISSIPPI
DEPARTMENT OF BANKING AND
CONSUMER FINANCE, a
Mississippi state agency,
Defendants
SETTLEMENT AND ABSOLUTE RELEASE
WITH COVENANTS
KNOW ALL PERSONS BY THESE PRESENTS,
that the undersigned, CHARLOTTE CORLEY, IN
HER OFFICIAL CAPACITY AS COMMISSIONER,
MISSISSIPPI DEPARTMENT OF BANKING AND
CONSUMER FINANCE AND THE MISSISSIPPI
DEPARTMENT OF BANKING AND CONSUMER
FINANCE, for and in consideration of the agreement

32a
of Plaintiffs, ALL AMERICAN CHECK CASHING
INC, MID-STATE FINANCE, INC., their respective
corporate affiliates, and all of their respective agents,
representatives, employees, officers and insurers, and
MICHAEL E. GRAY INDIVIDUALLY, to undertake
and/or refrain from the following actions and to pay
the following cash, the sufficiency of which is hereby
acknowledged, does hereby fully, completely and finally remise, release, acquit, discharge, and hold
harmless All American Check Cashing Inc., Mid-State
Finance, Inc., and Michael E. Gray Individually, and
their insurers, heirs, owners, successors, trustees, designees, representatives, assigns, principals, agents,
servants, employees, associates, divisions, stockholders, directors, officers, and/or associated or affiliated
companies or entities (hereafter collectively called All
American) of and from any and all claims, demands,
actions, causes of action, suits, regulatory actions, enforcement actions and damages of every kind and nature whatsoever arising out of the operation by All
American Check Cashing Inc., Mid-State Finance,
Inc., and any of their associated or affiliated companies or entities, of payday, check cashing and title
pledge businesses in the State of Mississippi.
In return for the following agreement, American
Check Cashing Inc., Mid-State Finance, Inc., and Michael E. Gray Individually, and their insurers, heirs,
owners, successors, trustees, designees, representatives, assigns, principals, agents, servants, employees, associates, divisions, stockholders, directors, officers, and/or associated or affiliated companies or entities fully, completely and finally remise, release, acquit, discharge, and hold harmless Charlotte Corley,
in her official capacity as Commissioner, Mississippi
Department of Banking and Consumer Finance, and

33a
the Mississippi Department of Banking and Consumer Finance of and from any and all claims, demands, actions, causes of action, suits, and damages
of every kind and nature whatsoever arising out of the
operation by All American Check Cashing Inc., MidState Finance, Inc., and Michael E. Gray Individually,
and any of their associated or affiliated companies or
entities, of payday, check cashing and title pledge
businesses in the State of Mississippi.
Consideration from Charlotte Corley, in her official capacity as Commissioner, Mississippi Department of Banking and Consumer Finance
and the Mississippi Department of Banking and
Consumer Finance, [sic]
1. In return for the actions stated above and in Paragraph 4, Charlotte Corley, in her official capacity as
Commissioner, Mississippi Department of Banking
and Consumer Finance, hereby agrees to reduce the
amount of the civil penalties imposed by the May 11,
2017, Administrative Order from $1,617,000.00 to
$889,350.00 (3234 x $275.00) to be paid $500,000.00
immediately and the remainder to be paid within 45
days of the effective date of this Agreement.
Attorney Review
2. All American Check Cashing Inc., Mid-State Finance, Inc., and Michael E. Gray Individually are represented by counsel.
ALL AMERICAN CHECK CASHING INC., MID-STATE FINANCE, INC., AND MICHAEL E. GRAY INDIVIDUALLY
HAVE BEEN GIVEN AMPLE TIME AND OPPORTUNITY TO
SUBMIT THIS AGREEMENT FOR REVIEW TO ANOTHER
ATTORNEY OF THEIR CHOICE AND SHOULD THEY FAIL
TO DO SO, THEY AGREE THAT THEY HAVE KNOWINGLY
WAIVED THEIR RIGHT TO HAVE THEIR CURRENT OR AN

34a
INDEPENDENT ATTORNEY REVIEW THIS AGREEMENT ON
THEIR BEHALF.
All American Check Cashing Inc., Mid-State Finance, Inc., and Michael E. Gray Individually
Covenants
3. In return for the consideration listed in Paragraph
1, All American Check Cashing Inc., Mid-State Finance, Inc., All American Title Loans, LLC, and Michael E. Gray Individually
(a) agree to the absolute release with covenants recited in the first paragraph of this agreement; and
(b) agree, covenant, and warrant to dismiss with prejudice within three business days any litigation now
pending against the Defendants or any of the Defendants’ current or former employees.
(c) agree, covenant, and warrant that they and their
employees shall delete the Facebook and YouTube,
[sic] posts and ads related to the Mississippi Department of Banking and Consumer Finance and/or any of
the Department’s employees and shall immediately
remove the Company website; and that they shall not
engage in any future disparagement or retaliation of
any sort against anyone involved with this Action.
(d) agree, covenant, and warrant that All American
Check Cashing Inc., Mid-State Finance, Inc. shall pay
refunds of $134,609.00 to the 703 customers identified
to the Department in the June 15, 2015, Response to
Report of Examination and/or escheat same to the
State Treasurer and shall provide proof of compliance.
(e) agree, covenant, and warrant that All American
Check Cashing Inc., Mid-State Finance, Inc. shall pay
fines of $889,350.00 calculated at $275.00 for each of
the 3,234 violations of the Mississippi Check Cashers

35a
and Title Pledge Acts. (3,234 violations X $275.00) to
be paid as follows: $500,000.00 immediately and the
remainder to be paid within 45 days of the effective
date of this Agreement. This consideration is completed as to all three Appellants whether paid by one,
two or all three Appellants,
(f) agree, covenant, and warrant that they, their
management and legal or personal representatives
shall not attempt to re-litigate in any forum the claims
that were asserted in this action or which could have
been asserted in this action or which were asserted or
could have been asserted in the administrative hearing of this matter, in the chancery court complaint
filed against the Defendants in July 2016 and dismissed in September 2016, styled as All American
Check Cashing Inc. a MS Corporation et al v. Corley
et al Case: 25CH1:16-cv-001003 or in the federal court
action now pending as All American v. Corley, Case
3:16-cv-00055-TSL-RHW in the U.S. District Court for
the Southern District of Mississippi.
(g) agree, covenant, and warrant that they have
assigned, transferred or in any way encumbered
claims that they have made in this action and
other actions filed against the Commissioner and
Department and its employees.

not
the
the
the

(h) agree [sic] covenant and warrant that Michael E.
Gray, his agents and or any entity owned by him or
his agents in whole or in part, shall not apply directly
or indirectly for licensure in any industry regulated by
the Mississippi Department of Banking or Consumer
Finance.
5. In executing and delivering this release, All American Check Cashing Inc., Mid-State Finance, Inc., and
Michael E. Gray, Individually, further rely wholly

36a
upon their own judgment, knowledge, and belief as to
the nature, extent, and duration of any claims they
may sustain in the future, as the result of the operation of check cashing, payday and title loan companies
in the State of Mississippi and their regulation by the
Mississippi State Department of Banking and Consumer Finance, and that they are legally competent to
execute this release and accept full responsibility
therefor.
6. Should it develop that there are any mistakes in
this release instrument, whether mutual or unilateral, whether patent or latent, which cause this release instrument to be defective or less than complete,
Charlotte Corley, in her official capacity as Commissioner, Mississippi Department of Banking and Consumer Finance and the Mississippi Department of
Banking and Consumer Finance, for and in consideration of the agreement of Plaintiffs, All American
Check Cashing Inc., Mid-State Finance, Inc., their respective corporate affiliates, and all of their respective
agents, representatives, employees, officers and insurers, and Michael E. Gray Individually, further
agree to execute any and all instruments and do any
and all things necessary to effectuate a full, final, and
complete release.
7. This mutual release is not an admission of liability or fault by any party. The parties shall not directly
or indirectly disparage or retaliate against anyone involved with this action.
8. The Department will hold the existing All American Check Cashing Inc., Mid-State Finance, Inc., and
All American Title Loans LLC performance bonds for
a period of three years.

37a
9. The terms of this Absolute Release in pertinent
part are included in the Agreed Order of Dismissal to
be submitted to the Hinds County Chancery Court
and entered as soon as this Absolute Release is signed
and notarized by all parties thereto. The terms of this
Agreement and those in the Agreed Order are enforceable via summary proceedings in Hinds County Chancery Court.
10. The parties to this Absolute Release agree that
this instrument of release may be signed in counterparts, each of which shall be an original and all of
which together shall constitute the same and one instrument.
This the _____ day of June, 2017.

All American Check Cashing Inc.
By_______________________________
Owner, Michael E. Gray
MidState Finance, Inc.
By_______________________________
Owner, Michael E. Gray
Michael E. Gray, Individually
_________________________________
All American Title Loans LLC.
By_______________________________

38a
Charlotte Corley in her official capacity
as Commissioner of the Mississippi Department
of Banking and Consumer Finance
_________________________________
Mississipi Department
of Banking and Consumer Finance
By_______________________________
Stephen Schelver
General Counsel, Mississippi Department
of Banking and Consumer Finance

(continued on next page)

39a
STATE OF MISSISSIPPI
COUNTY OF MADISON
Personally appeared before me, the undersigned
authority in and for the said county and state, on this
the _____ day of June, 2017, within my jurisdiction,
the within named MICHAEL E. GRAY, who acknowledged to me that he is the CEO and sole owner of All
American Check Cashing Inc., a Mississippi corporation, and MidState Finance Inc., and that for and on
behalf of said corporations, and as the act and deed of
said corporations, he executed the above and foregoing instrument, after first having been duly authorized by said corporation so to do.

SWORN to and subscribed before me, this the
_____ day of June, 2017.
________________________
NOTARY PUBLIC
My Commission Expires:

(continued on next page)

40a
STATE OF MISSISSIPPI
COUNTY OF MADISON
Personally appeared before me, the undersigned
authority in and for the said county and state, on this
the _____ day of June, 2017, within my jurisdiction,
the within named MICHAEL E. GRAY, who acknowledged to me that he is sole member of All American
Title Loans LLC, a Mississippi Limited Liability Company, and that for and on behalf of said Limited Liability Company and as the act and deed of said Limited Liability Company he executed the above and
foregoing instrument, after first having been duly authorized by said Limited Liability Company so to do.

SWORN to and subscribed before me, this the
_____ day of June, 2017.
________________________
NOTARY PUBLIC
My Commission Expires:

(continued on next page)

41a
STATE OF MISSISSIPPI
COUNTY OF MADISON
PERSONALLY appeared before me, the undersigned authority in and for the aforesaid jurisdiction,
MICHAEL E. GRAY, who, being first duly sworn,
stated on his oath that he did carefully read, sign, and
deliver the foregoing release instrument on the date
set forth herein and for the reasons therein stated.

SWORN to and subscribed before me, this the
_____ day of June, 2017.
________________________
NOTARY PUBLIC
My Commission Expires:

(continued on next page)

42a
STATE OF MISSISSIPPI
COUNTY OF HINDS
PERSONALLY appeared before me, the undersigned authority in and for the aforesaid jurisdiction,
CHARLOTTE CORLEY, IN HER OFFICIAL CAPACITY AS COMMISSIONER OF THE MISSISSIPPI
DEPARTMENT OF BANKING AND CONSUMER
FINANCE, who, being first duly sworn, stated on her
oath she had obtained any necessary approvals and
had full authority to so act on behalf of the Mississippi
Department of Banking and Consumer Finance, and
that she did carefully read, sign, and deliver the foregoing release instrument on the date set forth herein
and for the reasons therein stated.

SWORN to and subscribed before me, this the
_____ day of June, 2017.
________________________
NOTARY PUBLIC
My Commission Expires:

(continued on next page)

43a
STATE OF MISSISSIPPI
COUNTY OF HINDS
Personally appeared before me, the undersigned
authority in and for the said county and state, on this
the _____ day of June, 2017, within my jurisdiction,
the within named Stephen F. Schelver, who acknowledged to me that he is General Counsel for the Mississippi Department of Banking and Consumer Finance,
a Mississippi state agency, and that for and on behalf
of said agency, and as the act and deed of said agency,
he executed the above and foregoing instrument, after
first having been duly authorized by said so to do.

SWORN to and subscribed before me, this the
_____ day of June, 2017.
________________________
NOTARY PUBLIC
My Commission Expires:

44a
APPENDIX G

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
Consumer Financial Protection
Bureau,
Plaintiffs,
v.
ALL AMERICAN CHECK
CASHING, INC.; MID-STATE
FINANCE, INC.; AND MICHAEL E.
GRAY, INDIVIDUALLY,

Case No.
COMPLAINT
FOR
PERMANENT
INJUNCTION
AND OTHER
RELIEF

Defendants.
Plaintiff, the Consumer Financial Protection Bureau (“Bureau”), alleges the following against All
American Check Cashing, Inc. and Mid-State Finance, Inc. (together, “AACC”) and Michael E. Gray
(“Mr. Gray”) (together, “Defendants”):
INTRODUCTION
1. The Bureau brings this action based on Defendants’ violations of Sections 1031(a), 1036(a), and
1054(a) of the Consumer Financial Protection Act of
2010 (“CFPA”), 12 U.S.C. §§ 5531(a), 5536(a), and
5564(a), in connection with their offering and providing of payday loans and check cashing services.

45a
2. The Bureau seeks permanent injunctive relief,
restitution, refunds, disgorgement, damages, civil
money penalties, and other relief for Defendants’ violations of Federal consumer financial law.
JURISDICTION AND VENUE
3. The Court has subject-matter jurisdiction over
this action because it is brought under Federal consumer financial law, 12 U.S.C. § 5565(a)(1), presents
a federal question, 28 U.S.C. § 1331, and is brought by
an agency of the United States, 28 U.S.C. § 1345.
4. Venue is proper in this District because Defendants are located, reside, and do business in this District and because a substantial part of the events or
omissions giving rise to the claims occurred here. 28
U.S.C. § 1391(b) and (c), and 12 U.S.C. § 5564(f).
PLAINTIFF
5. The Bureau is an agency of the United States
charged with regulating the offering and provision of
consumer financial products or services under Federal
consumer financial laws. 12 U.S.C. § 5491(a). The Bureau has independent litigating authority to enforce
Federal consumer financial laws, including the CFPA.
12 U.S.C. § 5564(a) and (b), 12 U.S.C. § 5531(a).
DEFENDANTS
6. All American Check Cashing, Inc. is a Mississippi corporation with its principal place of business
at 505 Cobblestone Court, Suite B, Madison, MS,
39110. All American Check Cashing, Inc. has approximately 50 stores located in Mississippi, Alabama, and
Louisiana, the majority of which are in Mississippi.
At all times material to this complaint, All American

46a
Check Cashing, Inc. has offered and provided shortterm, high-cost loans (“payday loans”) and check cashing to consumers. These products and services are
“consumer financial product[s] or service[s]” as defined under the CFPA. 12 U.S.C. § 5481(5), (15). All
American Check Cashing, Inc. is therefore a “covered
person” under the CFPA. 12 U.S.C. § 5481(6). At all
times material to this complaint, All American Check
Cashing, Inc. has transacted business in the Southern
District of Mississippi.
7. Mid-State Finance, Inc., d/b/a Thrifty Check
Advance, is a Mississippi corporation with its principal place of business at 505 Cobblestone Court, Suite
B, Madison, MS, 39110. Mid-State Finance, Inc. has
at least one store, in Pearl, Mississippi. At all times
material to this complaint, Mid-State Finance, Inc.
has offered and provided payday loans and check
cashing to consumers. These products and services
are “consumer financial product[s] or service[s]” under the CFPA. 12 U.S.C. § 5481(5), (15). Mid-State Finance, Inc. is therefore a “covered person” under the
CFPA. 12 U.S.C. § 5481(6). At all times material to
this complaint, Mid-State Finance, Inc. has transacted business in the Southern District of Mississippi.
8. Mr. Gray is the president and sole owner of All
American Check Cashing, Inc. and Mid-State Finance, Inc. (together, “AACC”). Mr. Gray resides in
Madison, Mississippi. Mr. Gray founded All American
Check Cashing, Inc. in 1999, and purchased MidState Finance, Inc. approximately ten years later. At
all times material to this Complaint, acting alone or
in concert with others, Mr. Gray formulated, directed,
controlled, or participated in the acts and practices of
AACC, including the acts and practices set forth in

47a
this Complaint. At all times material to this Complaint, Mr. Gray has been a director, officer, or employee charged with managerial responsibility at
AACC. Mr. Gray has also materially participated in
the conduct of AACC’s affairs, including the development and approval of the practices complained of
herein. Mr. Gray is a “related person” and a “covered
person” under the CFPA. 12 U.S.C. § 5481(6), (25). At
all times material to this Complaint, Mr. Gray has
transacted business in the Southern District of Mississippi.
AACC’S CHECK CASHING BUSINESS
9. AACC began offering check cashing services in
Mississippi in March 1999, in Louisiana in July 2012,
and in Alabama in October 2013.
10. AACC charges consumers a fee to cash their
checks. In Mississippi and Alabama, AACC’s policy is
to charge consumers 3% of the amount of the check to
cash government-issued checks, and 5% of the amount
of the check to cash other checks. In Louisiana,
AACC’s policy is to charge consumers 2% of the
amount of the check to cash government-issued
checks, and 5% of the amount of the check to cash
other checks. In addition, in all states, AACC’s policy
is to charge a minimum fee of $5. There are businesses and financial institutions located near AACC
stores that charge consumers lower fees to cash a
check.
11. AACC’s check cashing business has been lucrative. In recent years, AACC has cashed about
12,000 to 17,000 checks and collected more than approximately $1 million in check cashing fees, annually.

48a
AACC’s policy and practice of refusing to
disclose the check cashing fee to consumers
12. Because the check cashing fees are fixed, when
a consumer presents a check to AACC to cash, the
AACC employee knows the fee structure (e.g. 3% or
5%). To determine the particular fee percentage a
consumer will pay, the only information the AACC
employee needs to know is whether or not the check is
a government check, which the employee can almost
always determine by looking at the face of the check.
In addition, if the employee calculates the fee or
knows that the $5 minimum applies, the employee
also knows the dollar amount of the fee.
13. AACC prohibits employees from orally disclosing to consumers the fee structure (e.g. 3% or 5%), the
fee percentage that applies to a transaction (e.g. 3%),
or the dollar amount of the fee, at any point during a
check cashing transaction, even when a consumer
asks the employee what the fee is.
14. AACC’s policy and training documents instruct employees to “[n]ever tell the customer the fee”
and “[n]ever quote the fee or the percentage to the customer[.]”
15. AACC regularly trains and monitors its employees to ensure that they adhere to this prohibition.
For example, AACC provides a training presentation
to new employees instructing them to “NEVER TELL
THE CUSTOMER THE FEE.”
16. In a January 5, 2013 email, Mr. Gray listed
the check cashing methods and systems he created,
including: “NEVER spout off the fee in dollars or in
percent.”
17. When a consumer presents AACC with a
check, AACC instructs its employees to “verify” the

49a
check by calling the issuer to confirm the check’s authenticity and to “process” the check by entering data
from the check into a store computer and preparing
the cash and receipt for the consumer. AACC requires
its employees to verify and process the check and provide the cash and receipt to the consumer without ever
disclosing the fee or obtaining the consumer’s consent
to the transaction, even when a consumer asks how
much it costs to cash a check.
18. When a consumer asks how much it costs to
cash a check, AACC requires employees to deflect the
question long enough to verify and process the check.
For example, AACC instructs employees to say that
the employees are not sure what the fee is and need to
take additional steps to determine the fee, such as
putting information in the store’s computer, processing the check, or verifying the check. AACC also
trains employees to falsely state “I will let you know
[the fee] in just a moment,” or state that the fee depends on the company that issued the check.
19. In both Mississippi and Louisiana, two of the
jurisdictions within which AACC operates, the law
provides for certain disclosures related to fees for
check cashing services. At all times relevant to the
allegations in this Complaint, AACC and Gray formulated and carried out a program aimed at subverting
these consumer protections.
20. Mississippi law requires that consumers sign
an acknowledgment of the fees charged when cashing
a check. The receipt that AACC provides to consumers to sign at the end of the transaction lists the fee
charged, but AACC requires employees to “[c]ount
money out over receipt” to block the consumer’s view
of the fee. Employees sometimes use other items to
cover the fee, such as small giveaways. AACC also

50a
instructs employees to minimize the amount of time
that the consumer can see the receipt before signing
it. AACC instructs its employees to “keep [the] receipt
away from customer as much as possible,” “keep the
[receipt] for [the consumer] to sign on the counter for
only a second,” and “remove [the] receipt and check as
quickly as possible.” One former supervisor stated,
“Employees at the stores I supervised asked customers to sign the receipt after the money was counted
out over the receipt, so customers would not have a
clear view of the fees listed on the receipt before signing it.” Even if the consumer sees the fee on the receipt, the receipt lists the “Fee Charged” and the
“Date Cashed” in the past tense, indicating that the
transaction has been completed and the fee already
charged.
21. In both Mississippi and Louisiana, AACC is
required to display a sign listing the fee percentages
that AACC charges to cash checks. AACC does not
permit employees to direct a consumer’s attention to
the sign, even if the consumer asks about the amount
of the fee. In fact, AACC seeks to prevent consumers
from seeing the sign. In AACC stores, the sign is
placed under the counter. Per company policy, AACC
employees must direct consumers to a seat in the
lobby while their check is being verified and processed, and ensure that the consumer’s time at the
counter is as minimal as possible. The information on
the sign can be difficult to read from the lobby. One
former employee stated that he was told by a store
manager to keep the consumer’s time at the counter
as short as possible “to minimize the chance that the
customer would see the fees listed on the sign under
the counter[.]”

51a
22. AACC also trains employees to distract consumers from finding out the fee by engaging in small
talk, providing consumers with information not relevant to the transaction, showing them the cash, and
providing small, free gifts. During one training,
AACC instructed employees to ensure “[c]onstant information [is] given to customer” so that “they are
overwhelmed with info.” AACC’s goal is to distract
consumers as much as possible so that transactions
can be completed without consumers learning the fee.
23. One consumer described AACC’s failure to disclose its check cashing fee as follows:
I went into All American Check Cashing... to cash my tax refund check which
was roughly $4100. Upon asking how
much the fee would be I was told that it
wouldnt be expensive. There were no
signs in the... building telling customers
how much their services were. So, once
my check was cashed, the guy... brung
me my money. While he was counting
the money, I kept asking how much did
yall charge because he kept my ID over
the amount charged and everytime I
would move the ID he would grab it back
so I wouldnt see the fee. I was charged
$200+!!!!! Im very upset that I was overcharged...On top of that, they provided
no paperwork. Something has got to be
done.

52a
AACC’s policy and practice of making it
difficult for consumers to cancel or reverse a
check cashing transaction
24. AACC compounds its obfuscation of check
cashing fees by making it difficult or impossible for
consumers to cancel or reverse a check cashing transaction if and when they do learn the fee. AACC does
this by, among other things, making misrepresentations about the consumer’s ability to cancel or reverse
a transaction, and taking steps during processing that
make it difficult or impossible for the consumer to
cash a check elsewhere.
25. According to one former supervisor, “the only
time you ever have the transaction voided... is if the
customer is pretty much kicking and screaming, fussing, cussing[.]”
26. In some cases, AACC makes false or misleading representations to discourage consumers from
cancelling or reversing a transaction. For example,
employees sometimes falsely say that because of steps
taken by AACC during processing, the consumer cannot reverse the transaction and cash the check elsewhere, even when the consumer could, in fact, reverse
the transaction and cash the check elsewhere. Employees also foster the misimpression that if the check
is taken to a bank, then the bank will hold the check
for a long period of time — further delaying consumers’ access to their funds — when the AACC employees do not know whether or not this is true. Employees also tell consumers that it will take a long time to
void or reverse a transaction, when this is not true.
27. In some instances, the steps AACC takes while
processing a check actually do make it difficult or impossible for the consumer to cash the check elsewhere,

53a
and thus AACC locks the consumer into the transaction. For example, when processing a check, employees sometimes apply a stamp to the back of the check
— such as, “FOR DEPOSIT ONLY: ALL AMERICAN
CHECK CASHING INC” — that prevents or interferes with the consumer’s ability to cash the check
elsewhere. Some employees stamp a consumer’s
check and then, if the consumer becomes upset about
fee, tell the consumer that the consumer cannot cash
that check elsewhere.
28. AACC also uses physical custody of the check
to control consumers and to compel consumers to pay
the fee even if they object. Training documents instruct employees to “[a]lways keep the check” because
doing so “[k]eeps [the employee] in control of the situation” so the “[c]ustomer can’t just walk out and leave
without talking to you.”
Creation and implementation of AACC’s check
cashing policies
29. AACC and Mr. Gray promoted the check cashing policies and procedures described in Paragraphs
12 to 28. Mr. Gray created, or specifically approved,
many of these policies and procedures. These policies
and procedures are widely implemented at AACC.
30. AACC and Mr. Gray devote substantial resources to ensure that employees at every store
strictly follow the check cashing policies and procedures in every transaction. For example, AACC performs regular audits of its stores to ensure that employees follow its check cashing policies. In addition,
a supervisor visits stores to conduct demonstrations
and practice sessions with employees on how to cash
a check according to the policies and procedures set
forth in Paragraphs 12 to 28.

54a
31. AACC and Mr. Gray provide store managers
and supervisors with incentives to ensure they follow
AACC’s check cashing policies and procedures. For
example, managers and supervisors can increase their
monthly bonuses by increasing check cashing fees collected at their stores.
32. As a result of the check cashing practices and
policies, described in Paragraphs 12 to 28, consumers
who do not know the fee for cashing a check are prevented or hindered from discovering it and prevented
or hindered from stopping or reversing a transaction
if they do learn the check cashing fee and seek to cancel the transaction.
AACC’S PAYDAY LENDING BUSINESS
33. AACC offers payday loans to consumers in its
stores in Mississippi, Louisiana, and Alabama. AACC
began offering payday loans in Mississippi in March
1999, in Louisiana in July 2012, and in Alabama in
October 2013.
34. AACC provides payday loans to consumers
who receive benefits or paychecks once a month
(“monthly consumers”). Monthly consumers include
individuals who receive government benefits, such as
Supplemental Security Income (SSI) and Social Security Disability Insurance (SSDI), and individuals paid
by their employers once per month.
35. Unlike many of its competitors, AACC does not
provide 30-day loans to monthly consumers. Instead,
AACC has provided these consumers with multiple
two-week loans over the course of the month. By borrowing from AACC, these consumers pay more in fees
for the same or less net cash received during the

55a
month. Nevertheless, AACC has deceptively represented to consumers that borrowing from AACC in
this manner is more financially beneficial than, or at
least financially equivalent to, taking out a 30-day
loan from one of AACC’s competitors.
Regulatory background
36. In Mississippi, AACC offers two payday loan
products: a two-week loan of $100 for a $20 fee, and a
two-week loan of $200 for a $40 fee. AACC does not
offer loans above $250 because, although the maximum permissible fee under Mississippi state law is
slightly higher ($21.95 for every $ 100 loaned), Mississippi law requires that loans in excess of $250 have a
loan term of 28 to 30 days. Miss. Code. § 75-67-519(1),
(4).
37. Mississippi law prohibits lenders from “rolling
over” a consumer’s loan, i.e. providing the consumer
with a new loan to pay back an outstanding loan from
the same lender. Miss. Code. § 75-67-519(5).
38. In Louisiana, although a payday loan term can
be up to 30 days, AACC offers only two-week loans.
Lenders may not roll over loans in Louisiana, although a lender may accept a partial payment of 25%
of the amount advanced plus the fee and then enter
into a new transaction for the remaining balance. La.
Rev. Stat. §§ 9:3578.3(2)(b); 9:3578.6(7).
39. In Alabama, although a payday loan term can
be up to 31 days, AACC offers only two-week loans.
Under Alabama law, one rollover is permitted for a
maximum of two continuous transactions. Ala. Code
§§ 5-18A-13(c); 5-18A-12(b).
40. AACC has regularly rolled over consumers’
loans, even when it is illegal to do so under state law.

56a
AACC’s practice of lending to consumers who
are paid monthly, or “1st and 3rd lending”
41. Instead of a 30-day loan, AACC has provided
monthly consumers with one or more two-week loans
during the course of a single month, typically in the
beginning of the month and in the middle of the
month. AACC often refers to this lending practice as
“Lending on the 1st and 3rd” or “Loaning on the 1st
and 3rd,” in part because many monthly consumers
regularly come into an AACC store in the beginning of
the month — on the 1st or the 3rd day of the month.
AACC has also referred to this practice as the
“Monthly Lending Program.”
42. Since at least 2011, AACC has implemented
Lending on the 1st and 3rd (“1st and 3rd lending” or
“1st and 3rd lending program”) in Mississippi, Alabama, and Louisiana.
43. In implementing 1st and 3rd lending, AACC
frequently has used consumer’s loan(s) in the middle
of the month to pay back the consumer’s loan(s) from
the beginning of the month, i.e. rolled over the loan(s).
AACC has often loaned monthly consumers more in
the middle of the month than in the beginning of the
month.
44. By borrowing from AACC through 1st and 3rd
lending rather than taking out a 30-day loan from a
competitor, consumers pay more in fees for the same
or less net cash received during the month.
45. On multiple occasions, AACC distributed a
training document to employees describing 1st and
3rd lending, which was also posted on the company’s
intranet. AACC used the document to instruct employees on how to implement 1st and 3rd lending, including during breakout sessions at company-wide

57a
meetings. The document uses the following example
of how to implement 1st and 3rd lending for a consumer in Mississippi:
a.

At the beginning of the month, when Mary
comes to the store to pay off her loans, employees “[i]mmediately start selling her on
getting part of her money back today.”

b.

Mary takes out a two-week loan for $200.
This loan has a $40 fee.

c.

In the middle of the month, Mary brings in
$40. She then takes out two two-week loans
of $200 each. Mary combines the $40 that she
brought in with $200 from one of the loans to
pay back the loan and fee from the beginning
of the month. In other words, the loan from
the beginning of the month is rolled over.
Mary leaves with the $200 from the second
loan.

d.

At the beginning of the next month, after receiving her monthly income, Mary pays the
$480 due ($400 in principal plus an $80 fee
from the two loans from the middle of the
month).

46. In the example in Paragraph 45, the consumer
pays $120 in fees during the course of the month in
return for leaving the store with a total of $400: $200
in the beginning of the month and $200 in the middle
of the month. As shown in the chart below, AACC
charged the consumer significantly more fees through
1st and 3rd lending than the consumer would have
paid for a 30-day loan of $400 from a competitor.

58a
$400 to consumer from
one 30-day
loan

$400 to consumer from
three two-week
loans

Fee in begin- $87.80 (for $400 $40 (for $200
ning of
loan)
loan)
month
Fees in middle of month

None

$40 (for $200
loan to pay back
first loan)
$40 (for an additional $200 loan)

Total fees

$87.80

$120

Total cash
received

$400 (all in beginning)

$400 ($200 in beginning, $200 in
middle)

47. The exact implementation of 1st and 3rd lending has varied. For example, some monthly consumers have borrowed $100 or $300 in the beginning of
the month, rather than $200. In addition, monthly
consumers sometimes have brought in nothing at all
or the entire amount due mid-month. In all these circumstances, monthly consumers still pay more in fees
for the same or less net cash received than if they had
borrowed a 30-day loan from a competitor. An AACC
supervisor highlighted how costly AACC 1st and 3rd
lending is compared to competitor 30-day loans:
The most common implementation of
[1st and 3rd lending] that I saw was that
the customer would borrow $300 at the
beginning of the month and then return
in the middle of the month without any

59a
money. The customer would borrow an
additional $400 in the middle of the
month and use $360 to pay back the loan
($300) plus the fee ($60) from the beginning of the month. The customer would
then leave the store with the remaining
cash, which was $40. The customer
would owe $480 at the beginning of the
next month. In this situation, the customer paid $140 in fees during the
month. If the customer had taken out a
30-day loan for $400 from a competitor
instead, the customer would have paid
only $87.80 in fees.
AACC made deceptive statements to consumers
in implementing 1st and 3rd lending
48. AACC has represented to consumers that borrowing pursuant to 1st and 3rd lending was more financially beneficial than, or at least financially equivalent to, taking out a 30-day loan from one of AACC’s
competitors. For example, AACC has represented to
consumers that “the fees are higher for competitors
that offer [loans for] 30 days” and that “[c]ompetitors
that offer 30 day advances are not able to help their
customers twice a month like All American[.]” AACC
has told consumers that AACC was “helping” or “looking out for” them by providing them with money in the
middle of the month.
49. In fact, 1st and 3rd lending is not more financially beneficial for monthly consumers compared to a
30-day loan. In all variations of 1st and 3rd lending,
monthly consumers pay AACC more in fees for the
same or less net cash received over the course of the

60a
month than they would have paid for a 30-day loan
from a competitor.
50. Consumers do not understand that they paid
higher fees for the same or less net cash received by
borrowing twice a month from AACC compared with
obtaining a 30-day loan from a competitor.
51. AACC also has misrepresented the amount
and number of fees associated with 1st and 3rd lending. For example, AACC sometimes has told monthly
consumers that, after receiving a loan, consumers
could return in the middle of the month and receive
more cash, but does not explain that consumers would
also pay a fee at that time. As a result, some consumers have not understood that AACC charges them an
extra fee when they obtain additional money in the
middle of the month.
52. AACC has made these deceptive statements to
encourage consumers to participate in 1st and 3rd
lending, which AACC has described internally as a
“huge income booster” due to the extra fees it has enabled AACC to extract from monthly consumers.
AACC has instructed employees to sell 1st and 3rd
lending aggressively to consumers. In one email to all
the stores, a supervisor included the following cartoon
depicting an AACC employee pressuring a consumer
to participate in 1st and 3rd lending:

61a

53. Mr. Gray has promoted the use of deceptive
statements at AACC. For example, he circulated a 1st
and 3rd training document that included the deceptive statements described in Paragraph 48, and instructed employees to implement it. Mr. Gray also
has instructed employees to be aggressive in urging
consumers to participate in 1st and 3rd lending.
AACC RETAINED OVERPAYMENTS MADE BY
CONSUMERS
54. Consumers sometimes make overpayments to
AACC when paying back a loan. Some of the overpayments are small, but in some instances, consumers
overpay by hundreds of dollars. Overpayments occur
when, for example, a consumer pays back a loan in
cash at a store, and AACC has already requested an
electronic fund transfer (EFT) from the consumer’s
bank. If AACC successfully obtains a payment
through the EFT, then the consumer pays back the

62a
loan twice instead of once: first in cash, and then
through the EFT.
55. From at least 2011 until at least 2014, AACC
did not take affirmative steps to notify consumers
when they made an overpayment or to refund overpayments to consumers, even though AACC could do
so by sending an EFT to the consumer’s bank account
or a paper check to the consumer’s home.
56. In addition, on a regular basis, AACC deleted
the credit balances from consumers’ accounts, making
it more difficult for store employees to identify and
provide refunds to consumers.
57. Mr. Gray knew of and directed AACC’s practice of retaining overpayments by consumers and deleting credit balances from their accounts.
58. As a result of its refund policies and practices,
AACC failed to provide refunds to hundreds of consumers.
ROLE OF INDIVIDUAL DEFENDANT
MICHAEL E. GRAY
59. Mr. Gray was aware of the unlawful policies,
procedures, and practices described herein, promoted
them, directed others to implement them, and personally created some of them.
60. Mr. Gray has ultimate authority over AACC’s
products, policies, procedures, and strategic decisions,
including with respect to lending, check cashing, and
providing refunds to consumers.
61. Mr. Gray has received personal financial gain
from the illegal practices discussed herein. Mr. Gray
withdraws money from AACC at will with no formal
process or predetermined regularity.

63a
VIOLATIONS OF THE CONSUMER FINANCIAL PROTECTION ACT
62. Sections 1031 and 1036 of the CFPA prohibit
a “covered person” from committing or engaging in
any “unfair, deceptive or abusive act or practice” in
connection with any transaction with a consumer for
a consumer financial product or service, or the offering of a consumer financial product or service. 12
U.S.C. §§ 5531(a), 5536(a)(1)(B). Defendants are “covered person[s]” within the meaning of the CFPA. 12
U.S.C. § 5481(6), (25).
63. An act or practice is unfair if the act or practice
causes or is likely to cause substantial injury to consumers, which is not reasonably avoidable by consumers; and such substantial injury is not outweighed by
countervailing benefits to consumers or to competition. 12 U.S.C. § 5531(c).
64. An act or practice is deceptive if there is a material representation, omission, or practice that is
likely to mislead consumers acting reasonably under
the circumstances.
65. An act or practice is abusive if it (1) materially
interferes with the ability of a consumer to understand a term or condition of a consumer financial
product or service, or (2) takes unreasonable advantage of (A) a lack of understanding on the part of
the consumer of the material risks, costs, or conditions
of the product or service; (B) the inability of the consumer to protect the interests of the consumer in selecting or using a consumer financial product or service; or (C) the reasonable reliance by the consumer
on a covered person to act in the interests of the consumer. 12 U.S.C. § 5531(d).

64a
DEFENDANTS’ UNLAWFUL CHECK CASHING
PRACTICES
Abusive Acts and Practices in Check Cashing
Count I
66. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
67. In numerous instances, in connection with offering and providing check cashing to consumers, Defendants have materially interfered with the ability of
consumers to understand a term or condition of their
check cashing services by having a policy to never tell
the consumer the fee — even when the consumer asks,
blocking the fee amount listed on the receipt, minimizing the amount of time the consumer has to see the
receipt, interfering with the consumer’s ability to see
the sign listing fee percentages, making false or misleading statements to consumers about the availability of information about the fee, and making false or
misleading statements to consumers about their ability to cancel or reverse the transaction or to cash their
check elsewhere.
68. Defendants’ acts and practices in connection
with check cashing constitute abusive acts or practices in violation of Sections 1031 and 1036 of the
CFPA. 12 U.S.C. §§ 5531(a) and (d)(i), 5536(a)(1)(B).
Count II
69. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
70. In numerous instances, in connection with offering and providing check cashing to consumers, Defendants have taken unreasonable advantage of the

65a
inability of consumers to protect their interests in selecting or using Defendants’ check cashing services by
pressuring or coercing consumers to cash their checks
at AACC, including by retaining custody of the check
to prevent consumers from leaving, processing the
check without the consumer’s consent, applying an
AACC stamp to the back of the check during processing to impair the consumer’s ability to cash the
check elsewhere, and making misrepresentations
about the consumer’s ability to cancel or reverse the
transaction or cash the check elsewhere.
71. Defendants’ acts and practices in connection
with check cashing constitute abusive acts or practices in violation of Sections 1031 and 1036 of the
CFPA. 12 U.S.C. §§ 5531(a) and (d)(2)(B),
5536(a)(1)(B).
Deceptive Acts and Practices in Check Cashing
Count III
72. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
73. In numerous instances, in connection with offering and providing check cashing to consumers, Defendants have represented to consumers that:
a.

Information about the fee for cashing a check
is not available; and

b.

It is difficult or time-consuming to cancel or
reverse a check cashing transaction, and
steps taken by AACC during processing prevent consumers from cashing their checks
elsewhere.

74. In truth and in fact, in numerous instances:

66a
a.

Information about the fee for cashing a check
is available. This information includes: the
fee structure (e.g. 3% or 5%), the fee percentage that applies to a transaction (e.g. 3%), or
the dollar amount of the fee; and

b.

It is not difficult or time-consuming to cancel
or reverse a check cashing transaction and, in
some cases, the steps taken by AACC to process the check do not prevent consumers from
cashing their checks elsewhere.

75. Defendants’ representations described in Paragraph 73 are false and misleading, and constitute deceptive acts or practices in violation of Sections 1031
and 1036 of the CFPA, 12 U.S.C §§ 5531(a),
5536(a)(1)(B).
Unfair Acts and Practices in Check Cashing
Count IV
76. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
77. In numerous instances, Defendants’ check
cashing acts and practices described herein have
caused or were likely to cause substantial injury to
consumers, including but not limited to the payment
of fees in amounts that were not authorized by consumers and for which consumers did not bargain.
78. Defendants’ actions cause or are likely to cause
substantial injury to consumers that consumers cannot reasonably avoid and that is not outweighed by
countervailing benefits to consumers or to competition.

67a
79. Defendants’ acts and practices as described in
Paragraph 77 constitute unfair acts or practices in violation of Sections 1031 and 1036 of the CFPA. 12
U.S.C §§ 5531(a) and (c), 5536(a)(1)(B).
DEFENDANTS’ UNLAWFUL 1ST AND 3RD
LENDING PRACTICES
Deceptive Acts and Practices in 1st and 3rd
Lending
Count V
80. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
81. In numerous instances, in connection with offering and providing payday loans to monthly consumers, Defendants have represented to consumers
directly or indirectly, expressly or by implication, that
borrowing pursuant to “1st and 3rd lending” was more
financially beneficial than or equivalent to obtaining
a 30-day loan from a competitor.
82. In truth and in fact, “1st and 3rd lending” is
not more financially beneficial than or equivalent to
obtaining a 30-day loan from a competitor because
consumers borrowing pursuant to “1st and 3rd lending” pay higher fees for the same amount of or less net
cash received over the course of the month compared
to 30-day loans offered by competitors.
83. Defendants’ representations described in Paragraph 81 are false and misleading, and constitute deceptive acts or practices in violation of Sections 1031
and 1036 of the CFPA. 12 U.S.C §§ 5531(a),
5536(a)(1)(B).

68a
DEFENDANTS’ UNLAWFUL PRACTICES
RELATING TO OVERPAYMENTS
Unfair Acts and Practices in Connection with
Overpayments by Consumers
Count VI
84. The Bureau incorporates the allegations in
Paragraphs 1 through 65 by reference.
85. In numerous instances, Defendants have not
notified or refunded consumers when consumers have
made an overpayment.
86. Defendants’ actions cause or are likely to cause
substantial injury to consumers that consumers cannot reasonably avoid and that is not outweighed by
countervailing benefits to consumers or to competition.
87. Defendants’ acts and practices as described in
Paragraph 85 constitute unfair acts or practices in violation of Sections 1031 and 1036 of the CFPA. 12
U.S.C §§ 5531(a) and (c), 5536(a)(1)(B).
CONSUMER INJURY
88. Consumers have suffered and will continue to
suffer substantial injury as a result of Defendants’ violations of the CFPA. In addition, Defendants have
been unjustly enriched as a result of their unlawful
acts or practices. Absent injunctive relief by this
Court, Defendants are likely to continue to injure consumers, reap unjust enrichment, and harm the public.

69a
THIS COURT’S POWER TO GRANT RELIEF
89. The CFPA empowers this Court to grant any
appropriate legal or equitable relief including, without limitation, a permanent or temporary injunction,
rescission or reformation of contracts, the refund of
moneys paid, restitution, disgorgement or compensation for unjust enrichment, payments of damages or
other monetary relief, limits on the activities or functions of Defendants, and civil money penalties. 12
U.S.C. § 5565(a), (c). In addition, the Bureau may recover its costs in connection with the action, if it is the
prevailing party. 12 U.S.C. § 5565(b).
PRAYER FOR RELIEF
90. Wherefore, the Bureau requests that the
Court:
a.

Award Plaintiff such injunctive and ancillary
relief as may be necessary to enjoin Defendants from harming consumers, including but
not limited to limits on activities or functions
of Defendants;

b.

Permanently enjoin Defendants from committing future violations of the CFPA;

c.

Award such relief as the Court finds necessary to redress injury to consumers resulting
from Defendants’ violations of the CFPA, including, but not limited to, rescission or reformation of contracts, the refund of moneys
paid, restitution, disgorgement or compensation for unjust enrichment, and payment of
damages or other monetary relief;

d.

Award Plaintiff civil money penalties; and

70a
e.

Award Plaintiff the costs of bringing this action, as well as such other and additional relief as the Court may determine to be just and
proper.

Dated: May 11, 2016

71a
Respectfully submitted,
ANTHONY ALEXIS
Enforcement Director
CARA PETERSEN
Deputy Enforcement Director for Litigation
R. GABRIEL D. O’MALLEY
Assistant Litigation Deputy
EMILY MINTZ (VA Bar
No. 82437)
Phone: (202) 435-9424
E-mail:
emily.mintz@cfpb.gov
MICHAEL FAVRETTO
(NY Bar No. 4508727)
Phone: (202) 435-7785
E-mail: michael.favretto@cfpb.gov
Enforcement Attorneys
Consumer Financial Protection Bureau
1700 G Street NW
Washington, DC 20552
Facsimile: (202) 435-7722
Local Counsel:
GREGORY K. DAVIS
United States Attorney
Southern District of Mississippi

72a
MITZI DEASE PAIGE (MS
Bar No. 6014)
Assistant United States
Attorney Chief, Civil Division
Southern District of Mississippi
501 E. Court Street, Suite
4.430
Jackson, MS 39201
Phone: (601) 965-4480
Direct: (601) 973-2840
Facsimile: (601) 965-4409
E-mail:
mitzi.paige@usdoj.gov

73a
APPENDIX H
U.S. Const. art. II, § 3
He shall from time to time give to the Congress
Information of the State of the Union, and recommend
to their Consideration such Measures as he shall
judge necessary and expedient; he may, on extraordinary Occasions, convene both Houses, or either of
them, and in Case of Disagreement between them,
with Respect to the Time of Adjournment, he may adjourn them to such Time as he shall think proper; he
shall receive Ambassadors and other public Ministers;
he shall take Care that the Laws be faithfully executed, and shall Commission all the Officers of the
United States.
12 U.S.C. § 5491. Establishment of the Bureau of
Consumer Financial Protection
(a) Bureau established
There is established in the Federal Reserve System, an independent bureau to be known as the “Bureau of Consumer Financial Protection”, which shall
regulate the offering and provision of consumer financial products or services under the Federal consumer
financial laws. The Bureau shall be considered an Executive agency, as defined in section 105 of title 5. Except as otherwise provided expressly by law, all Federal laws dealing with public or Federal contracts,
property, works, officers, employees, budgets, or
funds, including the provisions of chapters 5 and 7 of
title 5, shall apply to the exercise of the powers of the
Bureau.

74a
(b) Director and Deputy Director
(1) In general
There is established the position of the Director, who shall serve as the head of the Bureau.
(2) Appointment
Subject to paragraph (3), the Director shall be
appointed by the President, by and with the advice and consent of the Senate.
(3) Qualification
The President shall nominate the Director
from among individuals who are citizens of the
United States.
(4) Compensation
The Director shall be compensated at the rate
prescribed for level II of the Executive Schedule
under section 5313 of title 5.
(5) Deputy Director
There is established the position of Deputy Director, who shall—
(A) be appointed by the Director; and
(B) serve as acting Director in the absence or
unavailability of the Director.
(c) Term
(1) In general
The Director shall serve for a term of 5 years.
(2) Expiration of term
An individual may serve as Director after the
expiration of the term for which appointed, until
a successor has been appointed and qualified.
(3) Removal for cause

75a
The President may remove the Director for inefficiency, neglect of duty, or malfeasance in office.
(d) Service restriction
No Director or Deputy Director may hold any
office, position, or employment in any Federal reserve bank, Federal home loan bank, covered person, or service provider during the period of service of such person as Director or Deputy Director.
(e) Offices
The principal office of the Bureau shall be in
the District of Columbia. The Director may establish regional offices of the Bureau, including in cities in which the Federal reserve banks, or
branches of such banks, are located, in order to
carry out the responsibilities assigned to the Bureau under the Federal consumer financial laws.
12 U.S.C. § 5492. Executive and administrative
powers
(a) Powers of the Bureau
The Bureau is authorized to establish the general
policies of the Bureau with respect to all executive and
administrative functions, including—
(1) the establishment of rules for conducting the
general business of the Bureau, in a manner not inconsistent with this title;
(2) to bind the Bureau and enter into contracts;
(3) directing the establishment and maintenance
of divisions or other offices within the Bureau, in order to carry out the responsibilities under the Federal
consumer financial laws, and to satisfy the requirements of other applicable law;

76a
(4) to coordinate and oversee the operation of all
administrative, enforcement, and research activities
of the Bureau;
(5) to adopt and use a seal;
(6) to determine the character of and the necessity for the obligations and expenditures of the Bureau;
(7) the appointment and supervision of personnel
employed by the Bureau;
(8) the distribution of business among personnel
appointed and supervised by the Director and among
administrative units of the Bureau;
(9) the use and expenditure of funds;
(10) implementing the Federal consumer financial
laws through rules, orders, guidance, interpretations,
statements of policy, examinations, and enforcement
actions; and See References in Text note below.
(11) performing such other functions as may be
authorized or required by law.
(b) Delegation of authority
The Director of the Bureau may delegate to any
duly authorized employee, representative, or agent
any power vested in the Bureau by law.
(c) Autonomy of the Bureau
(1) Coordination with the Board of Governors
Notwithstanding any other provision of law
applicable to the supervision or examination of
persons with respect to Federal consumer financial laws, the Board of Governors may delegate to
the Bureau the authorities to examine persons

77a
subject to the jurisdiction of the Board of Governors for compliance with the Federal consumer financial laws.
(2) Autonomy
Notwithstanding- the authorities granted to
the Board of Governors under the Federal Reserve
Act [§12 U.S.C. 221 et seq.], the Board of Governors may not—
(A) intervene in any matter or proceeding before the Director, including examinations or enforcement actions, unless otherwise specifically
provided by law;
(B) appoint, direct, or remove any officer or
employee of the Bureau; or
(C) merge or consolidate the Bureau, or any of
the functions or responsibilities of the Bureau,
with any division or office of the Board of Governors or the Federal reserve banks.
(3) Rules and orders
No rule or order of the Bureau shall be subject
to approval or review by the Board of Governors.
The Board of Governors may not delay or prevent
the issuance of any rule or order of the Bureau.
(4) Recommendations and testimony
No officer or agency of the United States shall
have any authority to require the Director or any
other officer of the Bureau to submit legislative
recommendations, or testimony or comments on
legislation, to any officer or agency of the United
States for approval, comments, or review prior to
the submission of such recommendations, testimony, or comments to the Congress, if such recommendations, testimony, or comments to the
Congress include a statement indicating that the
views expressed therein are those of the Director
or such officer, and do not necessarily reflect the
views of the Board of Governors or the President.

78a
(5) Clarification of autonomy of the Bureau
in legal proceedings
The Bureau shall not be liable under any provision of law for any action or inaction of the
Board of Governors, and the Board of Governors
shall not be liable under any provision of law for
any action or inaction of the Bureau.
12 U.S.C. § 5302. Severability
If any provision of this Act, an amendment made by
this Act, or the application of such provision or amendment to any person or circumstance is held to be unconstitutional, the remainder of this Act, the amendments made by this Act, and the application of the
provisions of such to any person or circumstance shall
not be affected thereby.

